                                                                    r" ." "; ' \ \
   U'S
    i
   i). _.,_ • EIECl
        .   .•   , ,"
              .'. ~,       ~ .' iION'
                            /"
                        1 , ,1:
                                        ,'"
                                           ASSISI"
                                  '~",j lj_,~ jt
                                                . I
                                                ~,
                                                       r,
                                                            AN'CE  I
                                                                         C,~~'O') MMISSION
                                                                          ',' , "      .
                                                                                    ,! ,' ~ .
                                                                                       .,
                                                                                                     ~
                                                                                               j l '_,~jJ
                                                                                                 J       /   ]
                                                                                                                 1
                                                                                                                 j   ,J.',',                           I .)
                                                                                                                                                                  ."   !   :'   I




              OF  ,j .:-~'FI'CE'
                             J _'> OF'·' INSPE"'
                                              !  .~ ,~ ~ _~ "J I O
                                                                 '~~R GE"NERAI
~ ', ~ ,. -~ _~
                                    I

                             . u-             i .. ,        1__)   _j J   .. ...J..J        ..                       J _..     ',_) __   _:   J .. .      ".:.!




                                              FINAL EVALUATION REPORT:

   United States Election Assistance Commission
   Federal Information Security Management Act
       2008 Independent Evaluation Report




No. I-EV-EAC-Ol-08
OCTOBER 2008
                           U.S. ELECTION ASSISTANCE COMMISSION 

                                    OFFICE OF INSPECTOR GENERAL 

                                  1225 New York Ave. NW - Suite 1100 

                                        Washington, DC 20005 





                                                                                   October 31, 2008


Memorandum

To: 	        Chair, U.S. Election Assistance Commission

From: 	      Curtis W. Crider
             Inspector General

Subject: 	 Final Evaluation Report - United States Election Assistance Commission Federal
           Information Security Management Act 2008 Independent Evaluation Report
           (Assignment No. I-EV-EAC-OI-08)

        We contracted with the independent certified public accounting firm of Clifton
Gunderson LLP (Clifton Gunderson) to conduct the subject evaluation. Clifton Gunderson found
that the U.S . Election Assistance Commission (EAC) has made progress in educating users
through security and privacy awareness training, and has initiated discussions to develop EAC
specific policies related to information system security and privacy. However, additional
improvements are needed. The evaluation found that the EAC has not established an information
security program and has not been proactive in reviewing security controls and identifying areas
to strengthen this program. In addition, the evaluation found that the EAC was not fully
compliant with several provisions of the Privacy Act.

       Please provide us with your written response to the recommendations included in this
report by December 1, 2008. Your response should contain information on actions taken or
planned, including target dates and titles of EAC officials responsible for implementing the
recommendations.

        The legislation, as amended, creating the Office ofInspector General (5 U.S.C. § App.3)
requires semiannual reporting to Congress on all reports issued, actions taken to implement
recommendations, and recommendations that have not been implemented. Therefore, this report
will be included in our next semiannual report to Congress.

          If you have any questions regarding this report, please call me at (202) 566-3125.
     UNITED STATES ELECTION 

     ASSISTANCE COMMISSION 

  FEDERAL INFORMATION SECURITY 

     MANAGEMENT ACT (FISMA) 


2008 INDEPENDENT EVALUATION REPORT 

            October 2, 2008 

~ Clifta
~ Gund~rson LLP
         Certified Public Accountants & Consultants


October 2, 2008



Mr. Curtis Crider
Office of the Inspector General
U.S. Election Assistance Commission
1225 New York Avenue NW, Suite 1100
Washington, DC 20005

Dear Mr. Crider,

We are pleased to provide the fiscal year (FY) 2008 Office of Inspector General (OIG) response
to Office of Management and Sudget (OMS) Memorandum M-08-21 , "FY 2008 Reporting
Instructions for the Federal Information Security Management Act (FISMA) and Agency
Privacy Management" and FY 2008 FISMA Independent Evaluation Report, detailing the
results of our review of Election Assistance Commission's (EAC) information security program.

FISMA requires Inspectors General to conduct annual evaluations of their agency's security
programs and practices, and to report to OMS on the results of their evaluations. OMS
Memorandum M-08-21 provides instructions for meeting the FISMA reporting requirements.

We completed our response to M-08-21 based on our independent evaluation as of September
12, 2008, subsequent review through the date of this report of documentation supporting the
security program performance statistics reported by EAC management, and review of Plans of
Action and Milestones. In preparing our responses, we collaborated with EAC management and
appreciate their cooperation in this effort.

EAC management has provided Clifton Gunderson LLP with a response (dated September 30,
2008) to this FISMA 2008 Independent Evaluation Report. Management accepts our findings
and recommendations and intends to develop an action plan to address these findings.

We appreciate the opportunity to assist your office with these reports. Should you have any
questions please call George Fallon at (301) 931-2050.

Very truly yours,

CLIFTON GUNDERSON LLP




GFF:sgd



11710 Bcltsvtfle D,ive
Suite300
CalVe/to/I, MD 20705-3106
                                                                                            Memb e r of
tel: 301-931-2050
fax: 301-931-1710
                                                                                            •             International
www.c1iftoncpa.com                                Offices in 17 states and Washington, DC
                                          TABLE OF CONTENTS

                                                                                                                          Page

I.     EXECUTIVE SUMMARY ............................................................................................. 1 


II.    BACKGROUND........................................................................................................1 


III.   OBJECTIVES .............................................................................................................. 2 


IV.    SCOPE AND METHODOLOGY ................................................................................. 2 


V.     DETAILS OF RESULTS ............................................................................................. 3 


       A. Prior Year Results .................................................................................................. 3 


       B. Current Year Results ............................................................................................. 4 


VI.    FINDINGS AND RECOMMENDATIONS ................................................................... 5 


VII.   ACRONyMS................................................................................................................23 

I.    EXECUTIVE SUMMARY

      Title III of the E-Government Act (Public Law No. 104-347), also called FISMA, requires
      agencies to adopt a risk-based, life cycle approach to improving computer security that
      includes annual security program reviews, independent evaluations by the Inspector
      General (IG), and reporting to the OMB and the Congress. It also codifies existing policies
      and security responsibilities outlined in the Computer Security Act of 1987 and the Clinger
      Cohen Act of 1996.

      Based on the results of our fiscal year (FY) 2008 independent evaluation, we determined
      that the EAC has not established an information security program and has not been
      proactive in reviewing security controls and identifying areas to strengthen this program.

      The FY 2007 Pre-FISMA Independent Evaluation Report included six findings, two of which
      were closed in the current year. The four findings that remain open relate to EAC's
      information system and privacy policies and procedures, agreements with, and oversight of
      external service providers. EAC has made progress in educating users through security
      and privacy awareness training, and has initiated discussions to develop EAC specific
      policies and procedures relating to information system security and privacy.

      We are reporting nine findings for FY 2008.

II.   BACKGROUND

      The EAC was established by the Help America Vote Act of 2002 (HAVA). Central to its role,
      EAC serves as a national clearinghouse and resource for information and review of
      procedures with respect to the administration of Federal elections. According to the text of
      HAVA, the law was enacted to:

        " ... establish a program to provide funds to states to replace punch card voting systems,
        to establish the Election Assistance Commission in the administration of Federal
        elections and to otherwise provide assistance with the administration of certain Federal
        election laws and programs, to establish minimum election administration standards for
        states and units of local government with responsibility for the administration of Federal
        elections, and for other purposes."

      HAVA requires the EAC to:

      • 	 Generate technical guidance on the administration of federal elections.
      • 	 Produce voluntary voting systems guidelines.
      • 	 Research and report on matters that affect the administration of federal elections.
      • 	 Provide information and guidance with respect to laws, procedures, and technologies
          affecting the administration of Federal elections.
      • 	 Administer payments to states to meet HAVA requirements.
      • 	 Provide grants for election technology development and for pilot programs to test
          election technology.
      • 	 Manage funds targeted to certain programs designed to encourage youth participation in
          elections.
      • 	 Develop a national program for the testing, certification, and decertification of voting
          systems. Maintain the national mail voter registration form that was developed in



                                                    1
       accordance with the National Voter Registration Act of 1993 (NVRA), report to Congress
       every two years on the impact of the NVRA on the administration of Federal elections,
       and provide information to states on their responsibilities under that law.
   • 	 Audit persons who received federal funds authorized by HAVA from the General
       Services Administration (GSA) or the EAC.
   • 	 Submit an annual report to Congress describing EAC activities for the previous fiscal
       year (FY).

   Through FISMA, the U.S. Congress showed its intention to enhance the management and
   promotion of electronic government services and processes. Its goals are to achieve more
   efficient government performance, increase access to government information, and
   increase citizen participation in government. FISMA also provides a comprehensive
   framework for ensuring the effectiveness of security controls over information resources
   that support federal operations and assets. It also codifies existing policies and security
   responsibilities outlined in the Computer Security Act of 1987 and the Clinger Cohen Act of
   1996.

   The EAC Office of the Inspector General (OIG) contracted with Clifton Gunderson LLP to
   conduct EAC's FY 2008 FISMA Independent Evaluation. We performed this evaluation in
   conjunction with our review of information security controls required as part of the annual
   financial statement audit.

III. OBJECTIVES

   The purpose of this evaluation was to assess the effectiveness of EAC's information
   security program and practices and to determine compliance with the requirements of
   FISMA and related information security policies, procedures, standards, and guidelines.

IV. SCOPE & METHODOLOGY

   To perform our review of EAC's security program, we followed a work plan based on the
   National Institute of Standards and Technology (NIST),s Recommended Security Controls
   for Federal Information Systems - Special Publication (SP) 800-53 for specification of
   security controls and NIST SP 800-37 Guide for the Security Certification and Accreditation
   of Federal Information Systems and 800-53A Guide for Assessing the Security Controls in
   Federal Information Systems for the assessment of security control effectiveness, and the
   Government Accountability Office (GAO)'s Federal Information System Controls Audit
   Manual (FISCAM: GAO/AIMD-12.19.6), and our general controls review methodology. The
   combination of these methodologies allowed Clifton Gunderson LLP to meet the
   requirements of both FISMA and the Chief Financial Officer (CFO)'s Act. In addition, our
   evaluation was conducted in accordance with the January 2005, Quality Standards for
   Inspections, issued by the President's Council on Integrity and Efficiency.

   Our procedures included following-up on recommendations made in the FY 2007 Pre­
   FISMA Independent Evaluation Report; performing internal and external security reviews of
   EAC's information technology (IT) infrastructure; reviewing agency Plans of Action and
   Milestones (POA&Ms); and evaluating EAC's major systems.

   We performed procedures to test (1) EAC's implementation of an entity-wide security
   plan, and (2) operational and technical controls specific to each application such as
   service continuity, logical access, and change controls. We also performed targeted



                                             2

     tests of controls over financial processing applications and processes. We
     performed our review from August 1, 2008 to September 12, 2008 at EAC's
     headquarters in Washington, District of Columbia.

     EAC management and staff were very helpful and accommodating throughout this
     review and assisted us in refining the recommendations. This independent evaluation
     was prepared based on information available as of September 12, 2008.

V.   DETAILS OF RESULTS

     A.    Prior Year Results

           The FY 2007 Pre-FISMA Independent Evaluation Report identified six findings,
           reported as other weaknesses (Le., not significant to be reported as a significant
           deficiency in accordance with OMB classification guidelines). The following table
           summarizes the findings reported in FY 2007 and their current status.

                                                                                   Current
                 #                                 Title                           Status
             FY07-01     EAC does not have an inventory of all the                 Open
                         systems/applications used by GSA to support the
                         operations of EAC. GSA utilizes a suite of applications
                         for the various services it provides EAC, like CHRIS
                         for HR management and Pegasys®, a commercial-off­
                         the-shelf product for financial management and
                         reporting.

             FY07-02     The Memorandum of Understanding (MOU) does not            Closed
                         provide guidance on EAC's responsibilities with
                         respect to data integrity and completeness. EAC
                         prepares manual vouchers and transmits these to
                         GSA for input. The responsibilities of each party are
                         not spelled out in the MOUs. We did not see evidence
                         of the existence of an Interconnection Security
                         Agreement (ISA) or evidence that the EAC concerns
                         were addressed in a timely manner by the service
                         provider.

             FY07-03    "tAC has not developed any policies or procedures for      Open
                        information security or privacy management. Per the
                        terms of the MOU, the GSA procedures will prevail
                        where there are no guiding policies provided by the
                         user organization.

             FY07-04     There is no evidence that employees and contractors       Closed
                         of EAC have received Security Awareness Training.

             FY07-05     Only the OIG and its contractors have signed the          Closed
                         Rules of Behavior Governing Acceptable Use of
                         Federal Information System Resources policy.



                                              3

                                                                             Current
          #                                  Title                           Status
      FY07-06      Inadequacies were noted related to personnel security     Open
                   practices at EAC's service provider (GSA). The GSA
                   OIG has reported several cases of non-compliance
                   with background investigations for GSA's contract
                   personnel supporting GSA systems. This weakness
                   may potentially impact the integrity of EAC systems.


B.   Current Year Results

     In FY 2008, EAC addressed our recommendation related to security awareness
     training by rolling out a separate privacy and information security training course
     which includes a test of the user's knowledge of key concepts, a minimum passing
     score and mandate to complete the course and provide the completion certificate to
     management.

     We identified six new findings during the FY 2008 review within the following table
     summary.

      Finding
      Number                             Title                              Comments
       FY08-01    An agency-wide information security program in           None
                  compliance with FISMA, has not been developed.

       FY08-02    A security management structure with adequate            None
                  independence, authority, and expertise which is
                  assigned in writing has not been implemented.

       FY08-03    A Certification and Accreditation (C&A), formal Risk     None
                  Assessment, security plan or Security Test and
                  Evaluation (ST&E) of its local area network and
                  website general support systems has not been
                  completed/developed.

       FY08-04     EAC is not fully compliant with several Privacy Act None
                 . Requirements, including:
                   - A Chief Privacy Officer with the responsibility for
                      monitoring and enforcing privacy related policies
                      and procedures has not been designated
                   - EAC has not identified systems housing
                      personally identifiable information or conducted
                      related Privacy Impact Assessments (PIA's) as
                      required     by OMB         Memorandum      06-16,
                      Requirements        for    Protecting   Personally
                      Identifiable Information.
                    - EAC has not developed formal policies that
                      address the information protection needs
                      associated       with     personally   identifiable



                                        4
         Finding
         Number                              Title                            Comments
                         information (PII) that is accessed remotely or
                         physically removed.

          FY08-05    Weaknesses noted in our review of the independent       Repeat of
                     third party information security examinations and       prior year
                     inspections, are not monitored by EAC within the        finding FY07­
                     GSAPOA&M.                                               06

          FY08-06    Policies or procedures for information security or      Repeat of
                     privacy management have not been developed. Per         prior year
                     the terms of the MOU, the GSA procedures will           finding FY07­
                     prevail where there are no guiding policies provided    03
                     by the user organization.

          FY08-07 A formal incident response capability has not been         None
                  established.

          FY08-08 A Continuity of Operations Plan (COOP), Disaster           None
                  Recovery Plan (DRP) or Business Impact
                  Assessment (BIA) has not been developed.

          FY08-09    EAC does not have an inventory of all the systems/      Repeat of
                     applications used by GSA to support the operations      prior year
                     of EAC, or formally identified major applications and   finding FY07­
                     general support systems.                                01


         The details of our findings and recommendations follow.


VI. FINDINGS AND RECOMMENDATIONS

   FY08-01 	 An agency-wide information security program in compliance with FISMA,
             has not been developed,

           Based upon discussions with EAC management and review of provided
           documentation we determined that EAC has not developed, documented or
           implemented the following in accordance with FISMA:

                Periodic assessments of risk, including the magnitude of harm that could
                result from the unauthorized access, use, disclosure, disruption,
                modification, or destruction of information and information systems that
                support the operations and assets of the agency;

                Policies and procedures that are based on risk assessments, cost­
                effectively reduce information security risks to an acceptable level, and
                ensure that information security is addressed throughout the life cycle of
                each agency information system;



                                            5
    Subordinate plans for providing adequate information security for networks,
    facilities, information systems, or groups of information systems, as
    appropriate;

    Periodic testing and evaluation of the effectiveness of information security
    policies, procedures, practices, and security controls to be performed with a
    frequency depending on risk, but no less than annually;

    A process for planning, implementing, evaluating, and documenting
    remedial actions to address any deficiencies in the information security
    policies, procedures, and practices of the agency;

    Procedures for detecting, reporting, and responding to security incidents;
    and,

    Plans and procedures to ensure continuity of operations for information
    systems that support the operations and assets of the agency. We
    determined a disaster recovery plan is in development.

The E-Government Act (Public Law 107-347) Title III, entitled FISMA, requires
each federal agency to develop, document, and implement an agency-wide
information security program to provide information security for the information
and information systems that support the operations and assets of the agency,
including those provided or managed by another agency, contractor, or other
source. The information security program must include:

    Periodic assessments of risk, including the magnitude of harm that could
    result from the unauthorized access, use, disclosure, disruption,
    modification, or destruction of information and information systems that
    support the operations and assets of the agency;

    Policies and procedures that are based on risk assessments, cost­
    effectively reduce information security risks to an acceptable level, and
    ensure that information security is addressed throughout the life cycle of
    each agency information system;

    Suborginate plans for providing adequate information security for networks,
    facilities, information systems, or groups of information systems, as
    appropriate;

     Security awareness training to inform personnel (including contractors and
     other users of information systems that support the operations and assets of
     the agency) of the information security risks associated with their activities
     and their responsibilities in complying with agency policies and procedures
     designed to reduce these risks;

     Periodic testing and evaluation of the effectiveness of information security
     policies, procedures, practices, and security controls to be performed with a
     frequency depending on risk, but no less than annually;



                                 6
     A process for planning, implementing, evaluating, and documenting
     remedial actions to address any deficiencies in the information security
     policies, procedures, and practices of the agency;

     Procedures for detecting, reporting, and responding to security incidents;
     and,

     Plans and procedures to ensure continuity of operations for information
     systems that support the operations and assets of the agency.

OMB Circular No A-130 Appendix III states: 'Agencies shall implement and
maintain a program to assure that adequate security is provided for all agency
information collected, processed, transmitted, stored, or disseminated in general
support systems and major applications'.

NIST Special Publication 800-18 states:' All information systems must be
covered by a system security plan and labeled as a major application or general
support system'.

Recommendation
We recommend EAC management continue ongoing efforts and implement a
formal agency-wide security program plan in line with OMS A-130 Appendix III,
NIST Special Publication 800-18 and FISMA.

EAC Management's Response
Currently, EAC has procured a contractor to assist with the agency's strategies to
become compliant with OMS A-130, NIST special Publication 800-18 and
FISMA. These measures include completion of a certification and accreditation
of support systems, System Security Plans and practices and procedural guides
and documentation that will address the following issues noted in the condition
above:

•	    Periodic assessments of risks
•	    Policies and procedures that are based on risk assessments
•	    Periodic testing and evaluation of the effectiveness of information security
      policies, procedures, practices, and security controls
•	    A process for planning, implementing, evaluating, and documenting
      remedial actions to address any deficiencies in the information security
      policies, procedures, and practices of the agency
•	    Procedures for detecting, reporting, and responding to security incidents
•	    Plans and procedures to ensure continuity of operations
•	    Subordinate plans for providing adequate information security for Support
      systems

Though EAC's process is informal considering the lack of documentation and
procedural guides, a contingency plan exists for GSA systems which include
EAC. As a result, EAC would be effectively operational in the event of a minor or
major disaster. EAC currently has a draft of recommendations for a COOP plan
which will be addressed during the agencies efforts to be in compliance with
OMS Circular A-130, NIST special Publication 800-18 and FISMA.



                                 7

        In the event of a security incident, EAC follows GSA's CIO-IT Security-01-02 in
        the Handling IT Security Incidents Procedural Guide.



FY08·02 A security management structure with adequate independence, authority,
        and expertise has not been implemented.

        OMB Circular No A-130 Appendix 1/1 states: 'Assign responsibility for security in
        each system to an individual knowledgeable in the information technology used
        in the system and in providing security for such technology'.

        'For each system, an individual should be a focal point for assuring there is
        adequate security within the system, including ways to prevent, detect, and
        recover from security problems. That responsibility should be assigned in writing
        to an individual trained in the technology used in the system and in providing
        security for such technology, including the management of security controls such
        as user identification and authentication.'.

        Recommendation
        We recommend EAC management assign responsibility for the security
        management function to an individual with the oversight responsibility over the
        security management structure. The individual should have the expertise and
        independence to enforce security policies.

        EAC Management's Response
        GSA provides IT infrastructure support systems and services to the EAC. Within
        this support provided, EAC adheres to all rules, laws, policies, regulations,
        guidelines and plans set forth by GSA. EAC has not documented nor has
        formally implemented a security management structure or assigned any security
        roles. EAC operates within GSA's security controls. In the lack thereof, EAC has
        authorized an on site IT specialist to work with GSA to address security issues.
        Due to limited human resources, we have not been able to monitor GSA's
        security structure and plan. To address staffing and role assignment issues,
        EAC has strategically engaged in the process of having a contractor recommend
        and assist with the delegation and designation of security roles. EAC has also
        interviewedtor a position in the IT division.

        Currently, EAC is in the process of having a contractor assist with the Agency's
        strategies to become compliant with OMS A-130, NIST special Publication 800­
        18 and FISMA. This will include completion of a C&A of support systems,
        System Security Plans and Practices and procedural guides and documentation.




                                         8
FY08·03 A Certification and Accreditation (C&A), formal Risk Assessment, security
        plan or Security Test and Evaluation (ST&E) of its local area network and
        website general support systems has not been completed/developed.

        N/ST Special Publication 800-37 requires agencies to perform certification and
        accreditation of its major applications or general support system at least once
        every three years or when there is a significant change in the IT operating
        environment.

        A C&A is required for all Federal information systems as indicated within Section
        3544(b)(3) of FISMA. This section refers to "subordinate plans for providing
        adequate information security for networks, facilities, and systems or groups of
        information systems" and does not distinguish between major or other
        applications.

        Supplementing the above considerations, mandatory NIST Federal Information
        Processing Standards (FIPS) 199, Standards for Security Categorization of
        Federal Information and Information Systems, defines security categories for
        information systems based on potential impact on organizations or individuals
        should there be a breach of security-that is, a loss of confidentiality, integrity
        (including authenticity and non-repudiation), or availability. FIPS 199 security
        categories can play an important part in defining accreditation boundaries by
        partitioning the agency's information systems according to the criticality or
        sensitivity of the systems and the importance of those systems in accomplishing
        the agency's mission. The partitioning process facilitates the cost-effective
        application of security controls to achieve adequate security commensurate with
        the mission/business functions being supported by the respective information
        systems.

        N/ST Special Publication 800-53 Rev 2 (RA-3) states: 'The organization conducts
        assessments of the risk and magnitude of harm that could result from the
        unauthorized access, use, disclosure, disruption, modification, or destruction of
        information and information systems that support the operations and assets of
        the agency (including information and information systems managed/operated by
        external parties)'.

        Recommendations
        We recommend EAC management:

        • 	 Continue with ongoing efforts and conduct certification and accreditation of its
            general support system.
        • 	 Implement a risk assessment policy to require risk assessments to be
            performed periodically or when there is a significant change in the IT
            operating environment.

         EAC Management's Response
         In agreement, EAC has not performed the following on its local area network and 

         website general support: 

         1      Certification and Accreditation (C&A) 

         2.     Formal risk assessment


                                         9
       3.      Security plan
       4.      System Testing & Evaluation

       The website and local area network are supported by two different parties. The
       LAN is supported by GSA and the website is supported by Humanitas, a
       contracted company.

       GSA provides IT infrastructure support services to the EAC. Within this support
       provided, EAC adheres to all rules, laws, regulations and plans set forth by GSA.

       Currently, EAC is in the process of procuring a contractor to assist with the
       completion of a C&A that addresses all four issues mentioned above.
       Documentation was provided to CG on this.

       In section 10 of GSA Responsibilities in the MOU between GSA and EAC, it
       indicates that EAC will fall under the FY08 System Security Plan (SSP) for GSA.
       Though EAC currently does not have an SSP of it's own, it informally has one via
       GSA's SSP.


FY08-04 	EAC is not fully compliant with several Privacy Act Requirements,
         including:

       • 	 A Chief Privacy Officer with the responsibility for monitoring and
           enforcing privacy related policies and procedures has not been
           designated.
       • 	 EAC has not identified systems housing personally identifiable
           information or conducted related PIA's.
       • 	 EAC has not developed formal policies that address the information
           protection needs associated with PII that is accessed remotely or
           physically removed.

        We reviewed EAC's compliance with privacy protection of PI! and determined
        that EAC has temporarily assigned Privacy Officer duties to the Human Resource
        Specialist.

        We noted the 2008 FISMA Review performed for the GSA does not specify
        which systems were covered by this review. The FISMA template lists GSA
        systems by region and bureau [rather than by the system name] making it difficult
        to determine if EAC supported systems were part of this review. EAC does not
        have an inventory of systems covered by the FISMA evaluation and in which
        bureau or region these systems are located, or performed a PIA on systems
        identified as containing EAC PI!.

        OMB M-06-16 states that: Verify information categorization to ensure
        identification of personally identifiable information requiring protection when
        accessed remotely or physically removed. The purpose is to review the Federal
        Information Processing Standards (FIPS) Publication No. 199 security
        categorization of organizational information with the focus on remote access and
        physical removal. The intent is to ensure all personally identifiable information
        through which a moderate or high impact might result has been explicitly


                                        10
identified. For example, databases where the loss, corruption, or unauthorized
access to personally identifiable information contained in the databases could
result in a serious adverse effect, with widespread impact on individual privacy
being one area of specific concern.

NIST Special Publication 800-53 Rev 2 (PL-5) states: 'The organization conducts
a privacy impact assessment on the information system in accordance with OMB
policy'.

OMB Circular M-06-16 'Protection of Sensitive Agency Information' requires
agencies to implement organizational policy that addresses the information
protection needs associated with personally identifiable information that is
accessed remotely or physically removed'.

We reviewed the critical elements required of government agencies and
organizations in FY 2006 and noted EAC 's level of compliance. The following
questions were extracted from the Data Collection Instrument issued by the
PCIE. For purposes of this assessment, we extracted high-level questions only.
Our results are documented in the following table.

                                 Yes, No,
                                  Partial,
                                    Not
   Ref       Control Step       Applicable       Clifton Gunderson Comments
 Step 1     Has EAC             Partial      Although EAC has not received an
            confirmed                        inventory of all systems used by GSA
            identification of                to support he EAC's activities, it has
            personally                       however identified the need to protect
            identifiable                     all portable computers accessing
            information                      EAC data. To achieve this goal,
            protection                       management has affirmed that EAC
            needs? If so to                  has procured "Credant" encryption
            what level?                      software. We noted during the period
                                             of our audit that about 70% percent
                                             of all EAC computers have been
                                             encrypted with the Credent
                                             Encryption software. We randomly
                                             selected five (5) laptops to determine
                                             if they are encrypted.

                                             EAC has identified that Pegasys,
                                             FMIS and CHRIS are the GSA
                                             owned systems that contain EAC's
                                             personally identifiable information.

 Step 2     Has EAC             Partial      Administrative policies have been
            verified the                     developed addressing employee
            adequacy of                      conduct and hiring procedures.
            organizational                   However, EAC has still not identified
            policy? If so, to                security policies and procedures.
            what level?


                                  11
Step 3     Has EAC              Partial   See Step 1 above. EAC has procured
           implemented                    encryption software to protect
           protections for                information being transported and/or
           personally                     stored off-site; We noted during the
           identifiable                   period of our audit that approximately
           information                    70% percent of all EAC computers
           being                          have been encrypted with the
           transported                    Credent Encryption software. We
           and/or stored                  randomly selected five (5) laptops to
           offsite? If so, to             determine if they are encrypted.
           what level.
                                          We noted that EAC issued
                                          blackberries are not currently
                                          encrypted with the Credent
                                          encryption software.

Step 4     Has EAC              Partial   The IG's office has signed the GSA's
           implemented                    Riles of Behavior policy establishing
           protections for                acceptable use of government
           remote access                  information resources including
           to personally                  downloading software, improper web
           identifiable                   access, etc. EAC's rules of behavior
           information? If                are currently incorporated into the
           so to what                     EAC Security Awareness and Privacy
           level.                         Training programs.

                                          EAC has not conducted a risk
                                          assessment that address the risk
                                          associated with download, remote
                                          access, or other removal or PII from
                                          each system containing PII.

                                          Virtual Private Network (VPN) use
                                          has been granted to a selected few
                                          individuals. We selected a sample of
                                          five (5) VPN users to determine if
                                          their accesses are appropriately
                                          authorized without exception.

                                          EAC does not have Plan of Actions
                                          and Milestones (PO & M) for
                                          developing and implementing
                                          protection of sensitive information.

Sect 2.1   Has the              Partial   We noted during the period of our
           Agency                         audit that approximately 70% of all
           encrypted all                  EAC computers have been encrypted
           data on mobile                 with the Credent Encryption software.
           computers/devi                 We randomly selected five (5)
           ces which                      laptops to determine if they are
           carrv aQency                   encrypted.


                                  12
           data unless the
           data                           We noted that EAC issued
           determined to                  blackberries or portable memory
           be non-                        sticks are not currently encrypted
           sensitive, in                  with the Credent encryption software.
           writing by
           Agency Deputy
           Secretary or
           an individual
           he/she may
           designate in
           writin~17
Sect 2.2   Does the          No           We did not see evidence of major
           agency use                     steps and milestones directed at
           remote access                  implementing two-factor
           with two-factor                authentication.
           authentication
           where of the
           factors is
           provided by a
           device
           separate from
           the computer
           gaining
           access?
Sect 2.3 Does the            Partial      EAC has implemented a "time-out"
           Agency use a                   function for EAC desktops, laptops
           "time-out"                     and VPN access requiring user re-
           function for                   authentication after 30 minutes of
           remote access                  inactivity.
           and mobile
           devices
           requiring user
           re-
           authentication
           after 30
           minutes of
         . inactivity?
Sect 2.4 Does the            No           EAC does not own or operate any
           Agency log all                 information systems that contain
           computer-         Not          sensitive information. All identified
           readable data     Applicable   systems, Pegasys, FMIS and CHRIS
           extracts from                  are owned and managed by GSA.
           databases
           holding                        EAC has not defined which systems
           sensitive                      should be logged and the nature of
           information                    activity to be logged and reported by
           and verifies                   its service provider.
           each extract
           including
           sensitive data


                               13
            has been
            erased within
            90 days or its
            use is still
            required?
STEP        Has the           Partial       EAC has not documented procedures
5           Agency                          to follow when responding to a
            implemented                     breach of PI!. However,EAC follows
            provisions of                   GSA policies which require the report
            OMB M07-16                      of a breach within the first hour after
            of May 22,                      the incident occurred. EAC is also
            2007,                           required to fill out a GSA incident
            "Safeg uarding                  report to describe the event and
            Against and                     provide any other details.
            Responding to
            the Breach of
            PII"

Recommendations
We recommend EAC management:

1) Designate a Chief Privacy Officer or formally appoint an individual with the
   responsibility of monitoring and enforcing privacy related policies and
   procedures. Privacy responsibilities should be added to the position
   description (PO) of this assigned individual.

2) Develop an understanding of which EAC systems are covered by GSA's
   FISMA review rotation plan. Consequently, EAC should request from the
   service provider their systems review rotation schedule and note which
   systems are covered in each year's rotation. For fiscal years where EAC
   systems are not covered GSA should grant EAC access to review these
   systems to comply with FISMA requirements.

3) Develop and implement formal policies that address the information protection
   needs associated with PII when it is either accessed remotely or physically
   removed from EAC controlled areas.

EAC Management's Response
1) EAC is currently researching this issue. Due to the fact that the EAC is a small
   agency with limited human resources and capital, EAC needs to verify that the
   current 'Acting Privacy Officer' can formally be appointed Chief Privacy Officer
   due to the multiple roles and assignments that the person formally has.

  Currently, EAC is in the process of formally identifying a Privacy Officer. In the
  interim, The Human Resources Division informally executes the roles and
  responsibilities of a Privacy Officer and daily ensures that PII is not
  compromised.

2) Currently, EAC has procured a contractor to assist with the Agency's
   strategies to meet compliancy for OMB A-130, NIST special Publication 800­
   18 and FISMA. This will include completion of a C&A of support systems,


                                 14
          System Security Plans and Practices and procedural guides and
          documentation. Also, EAC is currently waiting for a reply from GSA on which
          systems are identified in the FISMA 2008 review.

        3) A Privacy Impact Assessment will be completed as EAC moves forward to
           become compliant with FISMA. This would address compliancy as required by
           OMB memorandum 06-16, requirements for protecting personally identifiable
           information (PII).

          GSA provides IT infrastructure and some resource support that contains
          Personally Identifiable Information. EAC adheres to all rules, laws, policies
          and regulations in regards to the access, handling and protection of personally
          identifiable information set forth by GSA.

          At present, EAC is in the process of procuring a contractor assist with the
          design construction and implementation of policies to address personally
          identifiable information.

          In 2006, EAC purchased software and server licenses in a joint attempt with
          GSA to encrypt all workstations and mobile devices. Included in the plan was
          a pilot test group which EAC users and EAC OIG were to participate in.
          Before the software and encryption server were deployed, GSA put a stop to
          the program due to issues found during the testing phase. This issue was
          addressed when OMB/NIST made changes to the compliancy requirements for
          vulnerabilities in 2007. GSA was to follow a hardening guide that addressed
          the found vulnerabilities and apply the changes to their image before February
          of 2008. In January of 2008, GSA released an image addressing those
          vulnerabilities and it included encryption software. EAC has updated all but 3
          workstations with the latest image provided by GSA which includes the
          encryption software. The name of the encryption software is credent v5.
          Currently, all but 3 workstations are encrypted with this software to address
          PII. The remaining 3 workstations will be completed by 12/15/2008.


FY08-05 Weaknesses noted in our review of the independent third party information
        security examinations and inspections, are not monitored by EAC within
        the GSA POA&M. (Re-Issued)

        Based upon discussions with management, we determined that EAC does not
        monitor or follow up on weaknesses noted in third party security examinations
        within a POA&M.

        Based upon a review of the Memorandum of Understanding (MOU) between
        GSA and EAC (signed 3/6/08), GSA is responsible for making available the
        FISMA report, FISMA audit action plan and POA&M. The POA&M will be made
        available on a quarterly basis.

        GSA reviews its IT systems in a cyclical manner and systems used to service
        EAC and other agencies are subject to an annual SAS 70 review.

        Based upon our review of the GSA SAS70 "Pegasys Financial Management


                                        15 

System" for the period 7/1/07 through 6/30/08, the following weaknesses were
identified:

• 	 Approval for user access was not consistently documented or evidence of the
    review of operating system failed logins was not available, and multiple
    exceptions in the effectiveness of logical access controls specifically within
    the UNIX and Windows server configurations existed.

• 	 One individual had access to the source code as well as the ability to move
    program changes into the production environment.

Based upon our review of the GSA SAS70 "Payroll Accounting & Reporting
System (PAR)" for the period 7/1/07 through 6/30/08, the following weaknesses
were identified:

• 	 Documentation of the testing and approval of emergency changes was not
    completed by the close of the next business day following the change, as
    required by GSA policy.

• 	 Evidence of approval for specific roles granted to users of the operating
    system software was not consistently available, and that evidence of testing
    and approval for operating system software modifications was not
    consistently available.

In accordance with the provisions of the OMB, Memorandum M-06-20 dated July
17, 2006, GSA should perform a complete FISMA review of all systems used in
supporting other agencies for these user agencies to meet their FISMA
requirement. " ... FISMA requires annual reviews and reporting of all systems,
including National Security Systems ...". FISMA Section 3544(b) (5) " ... all
information systems used or operated by the agency or by a contractor of an
agency or other organization on behalf of an agency must be tested at least
annually...""

NlST Special Publication 800-53 Rev 2 (CA-5) states: 'The organization develops
and updates [Assignment: organization-defined frequency}, a plan of action and
milestones for the information system that documents the organization's planned,
implemented, and evaluated remedial actions to correct deficiencies noted during
the assessment of the security controls and to reduce or eliminate known
vulnerabilities in the system'.

Per FISMA M08-21 guidance, "The agency is responsible for ensuring the
contractor corrects weaknesses discovered through self-assessments and
independent assessments. Any weaknesses are to be reflected in the agency's
POA&M."

"Agencies are fully responsible and accountable for ensuring all FISMA and
related policy requirements are implemented and reviewed and such must be
included in the terms of the contract. Agencies must ensure identical, not
"equivalent," security procedures. For example, annual reviews, risk




                                16
assessments, security plans, control testing, contingency planning, and C&A
must, at a minimum, explicitly meet guidance from NIST. "

Agencies and IGs should to the maximum extent practicable, consult with other
agencies using the same service provider, share security review results, and
avoid the unnecessary burden on the service provider and the agencies resulting
from duplicative reviews and re-reviews. Additionally, provided they meet FISMA
and policy requirements, agencies and IGs should accept all or part of the results
of industry-specific security reviews performed by an independent auditor on the
commercial service provider.

In the case of agency service providers, they must work with their customer
agencies to develop suitable arrangements for meeting all of FISMA's
requirements, including any special requirements for one or more particular
customer agencies. Any arrangements should also provide for an annual
evaluation by the IG of one agency. Thereafter, the results of that IG evaluation
would be shared with all customer agencies and their respective IGs.

Per FISMA M08-21 guidance, reporting instruction guidance, agency POA&Ms
must:

1) 	 Be tied to the agency's budget submission through the unique project
     identifier of a system. This links the security costs for a system with the
     security performance of a system.

2) 	 Include all security weaknesses found during any other review done by, for,
     or on behalf of the agency, including GAO audits, financial system audits,
     and critical infrastructure vulnerability assessments. These plans should be
     the authoritative agency-wide management tool, inclusive of all evaluations.

3) 	 Be shared with the agency IG to ensure independent verification and
     validation of identified weaknesses and completed corrective actions.

4) 	 Be submitted to OMB upon request.

Recommendations
We recommend EAC management:

•	   Request from GSA their systems review rotation plan and note which EAC
     support systems are covered by each rotation [by FY]. For FYs where EAC
     systems are not covered, GSA should grant EAC access to review these
     systems to comply with FISMA Section 3544.

•	   Obtain from GSA its POA&M to address security weaknesses identified in:
     (1) the SAS 70 review of the Heartland Finance Center; (2) the GSA OIG's
     2008 FISMA Report and (3) any other security-related reviews it may have
     performed on EAC support systems.

EAC Management's Response
Currently, EAC has procured a contractor to assist with the agency's strategies to
become compliant with OMB A-130, NIST special Publication 800-18 and


                                17
        FISMA. These measures include completion of a certification and accreditation
        of support systems, System Security Plans and Practices and procedural guides
        and documentation that will address the following issues noted in the condition
        above:

        •	    Periodic assessments of risks
        •	    Policies and procedures that are based on risk assessments
        •	    Periodic testing and evaluation of the effectiveness of information security
              policies, procedures, practices, and security controls
        •	    A process for planning, implementing, evaluating, and documenting
              remedial actions to address any deficiencies in the information security
              policies, procedures, and practices of the agency
        •	    Procedures for detecting, reporting, and responding to security incidents
        •	    Plans and procedures to ensure continuity of operations
        •	    Subordinate plans for providing adequate information security for Support
              systems

FY08-06 Policies or procedures for information security or privacy management
        have not been developed. Per the terms of the MOU, the GSA procedures
        will prevail where there are no guiding policies provided by the user
        organization. (Re-Issued)

        Since the pre-FISMA assessment in 2007, EAC's information security awareness
        and privacy training programs and content make references to applicable GSA
        policies (in the absence of corresponding EAC policies and procedures).

        The E-Government Act (Public Law 107-347) Title III, entitled the FISMA,
        requires each federal agency to develop, document, and implement an agency­
        wide information security program to provide information security for the
        information and information systems that support the operations and assets of the
        agency, including those provided or managed by another agency, contractor, or
        other source. The information security program must include:

             Periodic assessments of risk, including the magnitude of harm that could
             result from the unauthorized access, use, disclosure, disruption,
             modification, or destruction of information and information systems that
             support the operations and assets of the agency.

             PoliCies and procedures that are based on risk assessments, cost­
             effectively reduce information security risks to an acceptable level, and
             ensure that information security is addressed throughout the life cycle of
             each agency information system.

        Recommendation
        We recommend EAC management develop and implement information security
        policies for EAC. Where GSA policies are used, distribute these policies so
        employees are aware of their responsibilities and obligations.




                                         18
        EAC Management's Response
        Currently, EAC has procured a contractor to assist with the agency's strategies to
        become compliant with OMS A-130, NIST special Publication 800-18 and
        FISMA. These measures include completion of a certification and accreditation
        of support systems, System Security Plans and Practices and procedural guides
        and documentation that will address the following issues noted in the condition
        above:

        •	    Periodic assessments of risks
        •	    Policies and procedures that are based on risk assessments
        •	    Periodic testing and evaluation of the effectiveness of information security
              policies, procedures, practices, and security controls
        •	    A process for planning, implementing, evaluating, and documenting
              remedial actions to address any deficiencies in the information security
              policies, procedures, and practices of the agency
        •	    Procedures for detecting, reporting, and responding to security incidents
        •	    Plans and procedures to ensure continuity of operations
        •	    Subordinate plans for providing adequate information security for Support
              systems

        Though EAC's process is informal considering the lack of documentation and
        procedural guides, a contingency plan exists for GSA systems which include
        EAC. As a result, EAC would be effectively operational in the event of a minor or
        major disaster. EAC currently h~s a draft of recommendations for a COOP plan
        which will be addressed during the agencies efforts to be in compliance with
        OMS Circular A-130, NIST special Publication 800-18 and FISMA.

        Additionally, EAC is in the process of having a contractor assist with the design
        construction and implementation of policies to address personally identifiable
        information.

        In the event of a security incident, EAC follows GSA's CIO-IT Security-01-02 in
        the Handling IT Security Incidents Procedural Guide.


FY08-07 A formal incident response capability has not been established.

        EAC has not established a formal incident response capability. Specifically,
        • 	 Formal incident response procedures that clearly define the roles and
            responsibilities of key parties and users have not been developed;
        • 	 A formal incident response team has not been established; and
        • 	 EAC does not provide incident response training to users.

        We were informed that EAC currently reports all security incidents to GSA and
        has not developed its own incident response capability. Further, we inspected
        the EAC security awareness training documentation and noted that EAC system
        users are not provided training on their incident response responsibilities.

        NIST Special Publication 800-61 Computer Security Incident Handling Guide
        requires agencies to establish an incident response capability to include among


                                         19
       other things, incident response procedures, incident response team and incident
       response training.

       Recommendations
       We recommend EAC management:

        •	   Implement a formal incident response policy and procedures in line with
             NIST 800-61
        •	   Establish a formal incident response team with defined roles and
             responsibilities.
        •	   Update the security awareness training documentation to include incident
             response training.

        EAC Management's Response
        Currently, EAC has procured a contractor to assist with the agency's strategies to
        meet compliancy for OMS A-130, NIST special Publication 800-18 and FISMA.
        This will include completion of a C&A of support systems, System Security Plans
        and Practices and procedural guides and documentation that will address the
        following issues noted in the condition above:

        •	    Periodic assessments of risks
        •	    Policies and procedures that are based on risk assessments
        •	    Periodic testing and evaluation of the effectiveness of information security
              policies, procedures, practices, and security controls
        •	    A process for planning, implementing, evaluating, and documenting
              remedial actions to address any deficiencies in the information security
              policies, procedures, and practices of the agency
        •	    Procedures for detecting, reporting, and responding to security incidents
        •	    Plans and procedures to ensure continuity of operations
        •	    Subordinate plans for providing adequate information security for Support
              systems

        Though EAC's process is informal by not having documentation and procedural
        guides, a contingency plan exists for GSA systems which include EAC. As a
        result, EAC would be effectively operational in the event of a minor or major
        disaster. EAC currently has a draft of recommendations for a COOP plan which
        will be addressed during the agencies efforts to be in compliance with OMS
        Circular A-130, NIST special Publication 800-18 and FISMA.

        In the event of a security incident, EAC follows GSA's CIO-IT Security-01-02 in
        the Handling IT Security Incidents Procedural Guide.


FY08-08 A Continuity of Operations Plan (COOP), Disaster Recovery Plan (DRP) or
        Business Impact Assessment (BIA) has not been developed.

        NIST Special Publication 800-34 requires agencies to conduct business impact
        analysis to identify and prioritize critical IT systems and components prior to
        developing a contingency plan.




                                         20
NIST Special Publication 800-53 Rev 2 Information Security (CP-2) states: "The
organization develops and implements a contingency plan for the information
system addressing contingency roles, responsibilities, assigned individuals with
contact information, and activities associated with restoring the system after a
disruption or failure. Designated officials within the organization review and
approve the contingency plan and distribute copies of the plan to key
contingency personnel".

Presidential Decision Directive 67 (PDD 67) among other things requires federal
agencies to develop Continuity of Operations Plans for essential operations.

Recommendations
We recommend EAC management:

• 	 Conduct and document a formal business impact analysis to identify and
    prioritize critical IT systems and components.
• 	 Finalize and approve the draft contingency and continuity of operations plan
    and ensure that the plan is tested periodically.

EAC Management's Response
Currently, EAC has procured a contractor to assist with the agency's strategies to
become compliant with OMS A-130, NIST special Publication 800-18 and
FISMA. This will include completion of a C&A of support systems, System
Security Plans and Practices and procedural guides and documentation that will
address the following issues noted in the condition above:

•	    Periodic assessments of risks
•	    Policies and procedures that are based on risk assessments
•	    Periodic testing and evaluation of the effectiveness of information security
      policies, procedures, practices, and security controls
•	    A process for planning, implementing, evaluating, and documenting
      remedial actions to address any deficiencies in the information security
      policies, procedures, and practices of the agency
•	    Procedures for detecting, reporting, and responding to security incidents
•	    Plans and procedures to ensure continuity of operations
•	    Subordinate plans for providing adequate information security for Support
      systems

Though EAC's process is informal by not having documentation and procedural
guides, a contingency plan exists for GSA systems which include EAC. As a
result, EAC would be effectively operational in the event of a minor or major
disaster. EAC currently has a draft of recommendations for a COOP plan which
will be addressed during the agencies efforts to be in compliance with OMS
Circular A-130, NIST special Publication 800-18 and FISMA.

In the event of a security incident, EAC follows GSA's CIO-IT Security-01-02 in
the Handling IT Security Incidents Procedural Guide.




                                 21
FY08-9 	 EAC does not have an inventory of all the systems/applications used by
         GSA to support the operations of EAC, or formally identified major
         applications and general support systems. (Re-Issued)

        Federal Information Security guidelines recommend that each organization
        should develop, document and maintain a current, baseline configuration of the
        information system and an inventory of the system's constituent components
        even if these systems are not operated by the organization. We reviewed the
        EAC's organizational structure and held discussions with management to identify
        EAC's IT infrastructure as well as identify critical systems and platforms that
        support their operations. EAC does not own or operate any IT systems or
        platforms. They rely on GSA which provides administrative, financial
        management and IT related support services for EAC. GSA owns and operates
        the systems that support EAC.

        United States Code (USC) Chapter 35 of title 44 Subchapter 11/ § 3505 (c) states
        that:
        (1) The head of each agency shall develop and maintain 	an inventory of major
            information systems (including major national security systems) operated by
            or under the control of such agency.
        (2) The identification of information systems in an inventory under this subsection
            shall include an identification of the interfaces between each such system
            and all other systems or networks, including those not operated by or under
            the control of the agency.
        (3) Such inventory shall be:
            (a) Updated at least annually.
            (b) Made available to the Comptroller General.
            (c) Used to support information resources management, including:

        1. Preparation and maintenance of the inventory of information resources under
        section 3506(b) (4). ii. IT planning, budgeting, acquisition and management.

        Recommendation
        Obtain from their service provider, GSA, an inventory of systems that support
        EAC's operations. They should further obtain from GSA, a list of systems
        covered byJhe 2008 FISMA review and reconcile this with the list of EAC support
        systems to ensure EAC systems are adequately covered by the service
        provider's FISMA review.

        EAC Management's Response
        Currently, EAC has procured a contractor to assist with the Agency's strategies
        to meet compliancy for OMB A-130, NIST special Publication 800-18 and FISMA.
        This will include completion of a C&A of support systems, System Security Plans
        and Practices and procedural guides and documentation.

        EAC is currently waiting for a reply from GSA on which systems are identified in
        the FISMA 2008 review.




                                         22 

VII. ACRONYMS

        CFO       Chief Financial Officer
        FIPS      Federal Information Processing Standard
        FISCAM    Federal Information System Control Audit Manual
        FISMA     Federal Information Security Management Act of 2002
        FY        Fiscal Year
        GAO       Government Accountability Office
        GSA       General Services Administration
         IG       Inspector General
         IT       Information Technology
         CG       Clifton Gunderson LLP
         LAN      Local Area Network
         NIST     National Institute of Standards and Technology
         EAC      Election Assistance Commission
         OIG      Office of the Inspector General
         OMB      Office of Management and Budget
         PI!      Personally Identifiable Information
         POA&Ms   Plans of Action and Milestones
         SP       Special Publication




                                       23 

                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to ~IG's clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG.s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested bye-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1225 New York Ave. NW - Suite 1100
                      Washington, DC 20005

                      To order by phone: Voice:    (202) 566-3100
                                          Fax:     (202) 566-0957


To Report Fraud,      By Mail ~ 	 U.S. Election Assistance Commission
Waste and Abuse                   Office of Inspector General
Involving the V.S.                1225 New York Ave. NW - Suite 1100
Election Assistance               Washington, DC 20005
Commission or Help
                      E-mail:    eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
